OIG Investigative Reports, Camden NJ., August 14, 2013 - Pennsylvania Couple Admits Using Stolen Identities to Scam Student Loan Money from Online Universities
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
DISTRICT OF NEW JERSEY
NEWS
Pennsylvania Couple Admits Using Stolen Identities to Scam Student Loan Money from Online Universities
FOR IMMEDIATE RELEASE
August 14, 2013
CAMDEN, N.J. – An East Stroudsburg, Pa., couple admitted today to fraudulently obtaining at least $272,247 in student loan proceeds from Liberty University and American Public University by using stolen identities to have the money directed to addresses where they could intercept it, New Jersey U.S. Attorney Paul J. Fishman announced.
Stephanie Mitchell, 36, and Ronzell Mitchell, 37, pleaded guilty to separate informations charging each with one count of conspiracy to commit mail fraud. They entered their guilty pleas before U.S. District Judge Renée Marie Bumb in Camden federal court.
According to documents filed in this case and statements made in court:
From approximately Aug. 19, 2010, through March 21, 2012, the Mitchells fraudulently obtained U.S. Department of Education (ED) funds and converted them to personal use. Stephanie Mitchell regularly used a box at a UPS Store located in Montvale, N.J., that was opened using the name and driver’s license of another person. The pair then contacted online universities Liberty and American and posed as students for whom student loans had been issued, causing the proceeds of numerous credit balance checks and debit cards to be redirected to the UPS Store and a vacant house located in Stroudsburg, Pa.
During their guilty plea proceedings, Stephanie and Ronzell Mitchell admitted several specific instances in which they redirected student loans intended for others to addresses they controlled. Through this method, the Mitchells obtained approximately $272,247 in ED funds to which they were not entitled.
The count to which the Mitchells pleaded guilty carries a maximum potential penalty of 20 years in prison and a $250,000 fine, or twice the gross gain or loss caused by their offenses. Sentencing is currently scheduled for Nov. 18, 2013.
U.S. Attorney Fishman credited special agents of the ED Office of the Inspector General, Northeastern Regional Office, under the direction of Special Agent in Charge Brian Hickey; inspectors of the U.S. Postal Inspection Service, under the direction of Inspector in Charge Maria Kelokates, and special agents of the U.S. Secret Service, under the direction of James Mottola, Special Agent in Charge of the Newark Field Office, with the investigation.
The government is represented by Assistant U.S. Attorney Deborah J. Gannett of the U.S. Attorney’s Office Health Care and Government Fraud Unit in Newark.
13-339
Defense counsel:
Ronzell Michell: Paul Brickfield Esq., River Edge, N.J.
Stephanie Mitchell: Susan Cassell Esq., Ridgewood, N.J.
Mitchell, Ronzell Information
Mitchell, Stephanie Information
Top
Printable view
Last Modified: 08/30/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov